      United States Department of Agriculture




Office of Inspector General
Plant Protection and Quarantine
Preclearance Offshore Program




                                       33601-0001-23
                                       September 2014
                                         Plant Protection and Quarantine Preclearance 
                                                       Offshore Program 

                                                     Audit Report 33601-0001-23 

What Were OIG’s

Objectives

OIG assessed APHIS’
management controls for:
detecting and eradicating
problematic pests and plants in
their countries of origin;        APHIS Needs to Improve Its Monitoring and 
facilitating safe trade by        Evaluation of the Preclearance Offshore 
monitoring imports; protecting    Program 
against the introduction of
pests in precleared products;
and assisting exporters.          What OIG Found

What OIG Reviewed                 The Office of Inspector General (OIG) did not identify any specific
                                  instances where harmful pests entered the United States. However,
OIG examined documentation        OIG concluded that the Animal and Plant Health Inspection Service’s
from countries that export        (APHIS) Plant Protection and Quarantine (PPQ) program did not
mangoes into the United           have a sufficient system of management controls to ensure that the
States. We reviewed all           Preclearance Offshore Program (Preclearance Program) was able to
33 trip reports from mango        effectively protect U.S. agriculture from foreign pests and diseases.
exporting countries and one       Specifically, PPQ officials did not implement management controls,
trip report from Vietnam for      such as performance measures, to assess the effectiveness of the
FYs 2010 through 2012, and        program, identify or analyze risks after accepting countries into the
judgmentally selected 12 of       program, and create an internal control structure to facilitate adequate
30 active work plans during       supervision and documentation of program reviews. This occurred
FYs 2011 through 2013 from        because PPQ did not define clear reporting requirements, roles, and
30 countries participating in     processes when the Preclearance Program came under PPQ's control
the Preclearance Program.         in fiscal year (FY) 2011. As a result, the lack of oversight from the
                                  top levels has affected all aspects of the Preclearance Program’s
What OIG Recommends               administration.

APHIS should develop and          We found that Preclearance Program managers did not read reports
implement performance             from the inspectors they oversee, despite the fact that these reported
measures, a formal operational    work plan violations. We also found that all 12 of the work plans we
review process, risk              reviewed did not have criteria showing consequences for repeated
assessment, and updated           noncompliance, and 58 percent of the plans we reviewed did not
program guidance for the          include an effective sampling methodology. Also, PPQ did not have a
Preclearance Program.             formal training program in place. These issues could potentially put
APHIS should also develop a       the United States at a risk for the introduction of foreign pests and
review process evaluating the     diseases. APHIS officials stated that they are developing policies and
trip reports.                     procedures to address these issues and to ensure consistency and
                                  transparency in program processes. OIG accepted management
                                  decision on 14 of the 16 recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 24, 2014

AUDIT
NUMBER:        33601-0001-23

TO:            Kevin Shea
               Administrator
               Animal and Plant Health Inspection Services

ATTN:          Marilyn Holland
               Deputy Administrator
               Marketing Regulatory Program Business Services

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Plant Protection and Quarantine Preclearance Offshore Program


This report presents the results of the subject audit. Your written response to the official draft
report, dated September 4, 2014, is included in its entirety at the end of this report. Excerpts
from your response and the Office of Inspector General’s position are incorporated into the
relevant sections of the report.

Based on your written response, we are able to accept management decision on
Recommendations 1, 2, 3, 4, 5, 6, 7, 8, 9, 12, 13, 14, 15, and 16. However, we are unable to
accept management decision on Recommendations 10 and 11. The documentation or action
needed to reach management decision for these recommendations are described under the
relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.
Kevin Shea                                                                                   2


We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Management Controls .......................................................................... 4
Finding 1: APHIS Needs to Improve Its Monitoring and Evaluation of the
Preclearance Offshore Program ............................................................................ 4
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
         Recommendation 3 ........................................................................................9
         Recommendation 4 ........................................................................................9
         Recommendation 5 ......................................................................................10
         Recommendation 6 ......................................................................................10
         Recommendation 7 ......................................................................................10
Finding 2: PPQ Should Fully Utilize Trip Reports as a Monitoring Tool ...... 12
         Recommendation 8 ......................................................................................14
         Recommendation 9 ......................................................................................15
Finding 3: Country Work Plans Need Strengthening ....................................... 16
         Recommendation 10 ....................................................................................19
         Recommendation 11 ....................................................................................19
         Recommendation 12 ....................................................................................20
Finding 4: APHIS Needs to Develop and Implement a Formal On-the-Job
Training Process for LES Inspectors .................................................................. 21
         Recommendation 13 ....................................................................................22
         Recommendation 14 ....................................................................................23
         Recommendation 15 ....................................................................................23
         Recommendation 16 ....................................................................................24
Scope and Methodology ........................................................................................ 25
Abbreviations ........................................................................................................ 27
Exhibit A: Prior Audit Recommendations ......................................................... 28
Exhibit B: Work Plan Discrepancies .................................................................. 29
Agency's Response ................................................................................................ 30
Background and Objectives 
Background
The Department of Agriculture’s (USDA) Animal and Plant Health Inspection Service (APHIS)
safeguards U.S agricultural and natural resources through a safeguarding system which includes
offshore programs and port of entry surveillance and inspections. The Plant Protection and
Quarantine (PPQ) program regulates the importation of plants and plant products under the
authority of the Plant Protection Act.1 The PPQ program plays a critical role in effectively
mitigating the risk of exotic plants, pests, and invasive species2 being imported into the United
States. As part of these duties, PPQ program staff administer the Preclearance Offshore
Program (Preclearance Program), which allows certain foreign agricultural products to undergo
anti-pest treatments and inspections (hereafter referred to as “precleared”) in their country of
origin and then be imported to the United States under a fast-track process, instead of going
through a lengthier process of clearance at the U.S. ports of entry.

The Preclearance Program’s mission is to perform inspections and treatments (such as hot water
treatment, fumigation, and irradiation treatment) of commodities in foreign countries to expedite
trade and to (1) minimize monitoring and inspection upon arrival at U.S. ports of entry;
(2) facilitate open trade for high-risk commodities; (3) avoid rejects and delays upon arrival,
which impacts freshness; (4) reduce the cost of rejecting commodities, which is less costly when
done in host countries; and (5) monitor offshore treatments.3

PPQ works with a foreign government or foreign commodity exporters, which are known as
cooperators, to create a Cooperative Service Agreement (CSA), before it can participate
in the Preclearance Program. 4 The CSA establishes terms and conditions that the
cooperator must meet prior to program implementation. It is a legal document between APHIS
and the foreign entity enrolled in the program, and outlines the services APHIS will perform and
the terms of the cooperator’s payment for those services. Cooperators make their payments to
trust fund accounts, which PPQ draws from to operate the program.5

The Preclearance Program is regarded as a 100-percent cost recovery program, meaning that no
appropriated funds are needed for its administration. In fiscal year (FY) 2012, the cooperators’
trust funds totaled over $13.6 million for 31 cooperators and, in FY 2013, $11.4 million was in



1
  Agriculture Risk Protection Act of 2000, Public Law 106-224, June 20, 2000; Title IV – Plant Protection Act.
2
  A species is a group of animals or plants that are similar, sharing common qualities or characteristics, and that can
  produce young animals or plants. Nonnative species that cause harm are collectively known as invasive species.
3
  Hot water treatment involves using heated water to raise the temperature of the commodity to the required
  temperature for a specified period of time to destroy the pest. Irradiation is the process of treating food with a
  specific dosage of ionizing radiation in order to destroy the pest. Fumigation completely fills an area with gaseous
  pesticides - or fumigants - to suffocate or poison the pests within.
4
  An Operational Work Plan is also required for participation in the Preclearance.
5
  Trust fund accounts are monetary accounts in which funds are placed in the custody of a trustee (APHIS) by the
  trustor or cooperator. APHIS administers these accounts on behalf of the trustor/cooperator.

                                                                           AUDIT REPORT 33601-0001-23                1
the trust funds of 23 cooperators.6 These funds pay the salaries and travel expenses for the
inspectors in the field. There are currently 30 countries participating in the Preclearance
Program and over 3 billion kilograms of fruits and vegetables have been precleared since
January 2009.

PPQ officials authorize treatment facilities located outside the United States and require them
to operate in accordance with a work plan. A facility’s work plan is a document that guides
the operational requirements and procedures to ensure the eradication of pests and diseases on
imported products. A work plan identifies the program’s country-specific goals and
objectives, roles and responsibilities of the parties, details of the work to be performed, and
the resources to be contributed by each party. It is developed by host-country officials with
assistance and approval from APHIS, and is based upon a country’s risk assessment and
inspections for pests and diseases that could possibly harm U.S. agricultural products.
Treatments are conducted in foreign countries under the direct supervision of qualified
APHIS personnel, and in accordance with specific phytosanitary procedures.7

APHIS supervises foreign commodity processing facilities through four Preclearance Program
regional directors that oversee five area directors.8 In addition, these regional directors in PPQ
Headquarters select PPQ temporary duty inspectors located in the United States to travel to
foreign countries to perform Preclearance Program inspections. Preclearance travel expenses
totaled approximately $1.26 million in FY 2011 and approximately $1.3 million in FY 2012.
Locally Employed Staff (LES) inspectors located in the foreign country also perform
inspections. Specific responsibilities can vary, depending on the commodity and host country.

The Homeland Security Act of 2002 effectively transferred APHIS’ port-of-entry inspection
functions to the Department of Homeland Security’s (DHS) Customs and Border
Protection (CBP).9, 10 A Memorandum of Agreement between DHS and USDA served as the
transfer agreement and specified the functions transferred to DHS and the functions retained by
USDA. For the Preclearance Program, integrity checks11 may be performed by CBP inspectors
to ensure conformance with program guidelines at U.S. ports of entry. The agricultural import
and entry inspection functions that remained within USDA included providing risk analysis
guidance; administering the Preclearance Program; and developing and issuing regulations,
policies, and procedures that CBP inspectors use to evaluate commodities. USDA was also
required to supervise the training of DHS employees.

6
  The number of participants fluctuates depending on the time of year, as some countries produce different
   commodities during different seasons.
7
  The Food and Agriculture Organization of the United Nation’s glossary of phytosanitary terms states that
   phytosanitary procedures are any officially prescribed method for performing inspections, tests, surveys, or
   treatments in connection with plant quarantine.
8
  In FY 2014, the Preclearance Program reorganized from four regional directors to two assistant directors.
9
  CBP’s primary mission is to keep terrorists and their weapons out of the United States. It also has the
   responsibility for securing the border and facilitating lawful international trade and travel while enforcing
   hundreds of U.S. laws and regulations, including immigration and drug laws.
10
    Section 421 (a) of the Homeland Security Act of 2002 transferred certain agricultural import and entry inspection
   functions from the Secretary of Agriculture to the Secretary of Homeland Security.
11
    During integrity checks, CBP may: compare PPQ’s Preclearance Form 203, “Foreign Certificate of Inspection
   and/Treatment,” to supporting documentation, such as the ship manifest; check the seals on the containers to
   ensure they are not broken; and inspect the commodities for pest infestation.

2     AUDIT REPORT 33601-0001-23
In October 2010, the Preclearance Program was transferred from APHIS’ International Services
Division (IS) to PPQ. PPQ completed its restructuring in January 2013 to address the challenges
in the Preclearance Program, including the increasing complexity of international trade and
budget constraints.

In January 2001, we issued Audit Report 33099-02-HY, APHIS International Programs. The
objective of that audit was to determine whether APHIS implemented the corrective action
agreed to in response to recommendations made in a prior OIG audit – Audit Report
33099-01-HY, APHIS International Programs (June 1995). During this audit (Audit Report
33099-02-HY), we also evaluated APHIS’ procedures and operations regarding Preclearance
Program activities for fruits and vegetables and for inspecting and quarantining animals prior to
their entry into the United States. As noted in Exhibit A, we found that APHIS adequately
implemented the corrective actions related to the Preclearance Program; however, as stated in
this report, additional improvements are still needed to strengthen the controls over the
management of the Preclearance Program.

Objectives
Our overall objective was to evaluate the internal controls governing the Preclearance Program.
Specifically, we assessed APHIS’ management controls for (1) detecting and eradicating
problematic pests and plants before they leave their countries of origin; (2) facilitating safe trade
by monitoring the movement of imported plants, fruits, and vegetables; (3) protecting against the
introduction of pests in precleared products; and (4) assisting exporters in meeting the entry
requirements. In addition, we determined whether APHIS took appropriate actions to implement
the recommendations made in our prior OIG audit (Audit Report 33099-02-HY, APHIS
International Programs, issued January 25, 2001).

We did not identify any concerns related to controls over the movement of imported plants,
fruits, and vegetables during transit and intermediate stops between a foreign country and the
United States. As such, our report contains no findings or recommendations associated with this
portion of our objective.




                                                                AUDIT REPORT 33601-0001-23          3
Section 1: Management Controls  
Finding 1: APHIS Needs to Improve Its Monitoring and Evaluation of the
Preclearance Offshore Program
Even though OIG did not identify any specific instances where harmful pests entered the United
States, OIG concluded that PPQ did not create a sufficient system of management controls12 to
ensure that the Preclearance Program was able to effectively protect U.S. agriculture from
foreign pests and diseases. Specifically, PPQ officials did not (1) implement performance
measures to assess program effectiveness, (2) identify or analyze risks after accepting countries
to the program, and (3) create an internal control structure to facilitate adequate supervision and
documented program reviews. This occurred because, when the program’s management
functions (such as operational, financial, and administrative oversight) were transferred to PPQ
in FY 2011, PPQ did not define clear reporting requirements, roles, and processes. These same
issues were present when the program was under APHIS' IS. According to the Associate
Executive Director of Plant Health Programs and one regional director, PPQ did not develop
stronger controls or risk assessments because of time constraints as it dealt with a backlog of
issues such as human resource shortfalls and establishing a framework for managing employees
and systems previously under IS. As a result, we found that regional and area directors did not
always read reports from the inspectors they oversee, even though the reports cited work plan
violations (see Finding 2).13 Also, work plans did not contain provisions to notify or penalize
facilities for violations and did not include an effective sampling methodology (see Finding 3).
Finally, APHIS did not have a formal training program or documentation to ensure that all
inspectors had adequate knowledge to perform their duties (see Finding 4). Without sufficient
risk assessment, management controls, or accountability, the United States is at a risk of
importing commodities that harbor invasive plants and diseases from approximately 30 countries
and 750 facilities around the world.

Government Accountability Office (GAO) guidance calls on agencies to establish a control
environment that sets a “positive and supportive attitude toward internal control and
conscientious management.”14 Office of Management and Budget (OMB) Circular A-123
requires that agencies obtain and use reliable and timely information for effective decision-
making. Agencies must establish policies, procedures, techniques, and mechanisms that enforce




12
   Departmental Regulation 1110-002, Management’s Responsibility for Internal Control, dated June 17, 2013,
   states that managers are responsible for establishing environments where internal controls are understood,
   encouraged, practiced, and implemented. In addition, all managers directing or controlling resources within the
   Department are responsible for establishing, maintaining, evaluating, improving, and reporting on controls for
   their assigned areas.
13
   A work plan is the formal, approved document used to guide both the execution and control of preclearance
   commodities specific to the foreign country. A work plan identifies the goals and objectives while detailing the
   work to be performed and specific roles and responsibilities of the parties involved in the project, as well as the
   resources to be contributed by each party.
14
   GAO Standards for Internal Control in the Federal Government, dated November 1999.

4      AUDIT REPORT 33601-0001-23
management’s directions; monitor a program’s performance over time and promptly resolve
identified issues; and assess risks.15 Also, the Government Performance and Results
Act (GPRA) requires agencies to set performance goals and report annually on actual
performance compared to goals.16

        Performance Measures

        One of the Preclearance Program’s goals was to effectively facilitate trade while
        mitigating the risk of pests and diseases before commodities are imported. Also, APHIS’
        2015 Strategic Plan17 included an objective directly related to the Preclearance Program:
        "to expand and enhance" offshore pest prevention by "consolidating the program under
        unified management."18 PPQ did not create performance measures to determine whether
        the program met the goals of expanding and enhancing offshore pest prevention or for
        mitigating the risks of pests and diseases. Also, PPQ did not define any quantifiable
        targets for these goals. The regional director of the Preclearance Program believed, since
        the program did not have appropriated funding, it was not required to implement
        performance measures. However, we believe performance measures are essential to
        gauging the safety of precleared commodities and could greatly enhance program
        efficacy. During subsequent discussions with APHIS, the Associate Executive Director
        of Plant Health Programs agreed the Preclearance Program did not have specific
        measures to evaluate the overall performance of the program. In addition, she stated the
        Preclearance Program is going through a Business Process Improvement, which is
        assisting PPQ in developing and documenting measures more effectively.

        Risk Assessments

        While the Preclearance Program has tools available that could be used to assess risk, such
        as onsite compliance reviews and some pest interception data from port-of-entry
        inspections, it does not make use of these tools for risk assessment. The Preclearance
        Program regional director stated that officials rely on compliance reviews to evaluate the
        program, and do not conduct other risk assessments. However, as discussed in the next
        section, there are no guidelines for these reviews, and the results are neither documented
        nor tracked. Without adequate compliance reviews, PPQ is left without an effective
        method to gauge risk.

        Homeland Security’s CBP inspectors use APHIS' Pest Identification (PestID) system to
        record data, such as pest type and country of origin, on commodity shipments arriving in
        the United States where they discover a harmful pest or disease (known as “actionable
        pest interceptions”). CBP notifies the Preclearance Program Director and APHIS’ PPQ
        officials of precleared pest interceptions data from port-of-entry inspections. Interception
        data for preclearance commodities could be used to identify the higher risk countries and
        commodities with actionable pest infestation. However, we found the Preclearance

15
   OMB Circular A-123, Management’s Responsibility for Internal Control, Section III, dated December 21, 2004.
16
   Public Law 103-62, Government Performance and Results Act, dated August 3, 1993.
17
   Road Map to 2015: A Strategic Plan for Plant Protection & Quarantine.
18
   This refers to the transition to PPQ as, previously, the program was administered jointly by IS and PPQ.

                                                                      AUDIT REPORT 33601-0001-23                 5
         Program is unable to obtain reliable pest interception data for precleared shipments
         because the PestID system has no field to distinguish pest interceptions in precleared
         commodities from those in any other incoming shipments. As a result, PPQ cannot
         effectively track and analyze incidents when commodities in the Preclearance Program
         arrive in the United States with pests and diseases. According to an APHIS official,
         analyzing these pest interception data increases the effectiveness of pest exclusion efforts
         by rapidly identifying changes in pest risk.

         We obtained all 272 records of pest interceptions in PestID from January 2009 through
         July 2012. Since there was no field to identify precleared shipments, we relied on the
         “remarks” section where CBP officers can add comments—they sometimes indicate that
         a particular shipment was part of the Preclearance Program, but are under no requirement
         to do so. Using this methodology, we were able to identify at least 20 of the 272 entries
         as Preclearance Program pest interceptions. Of these 20 interceptions, 3 countries had
         multiple actionable interceptions – 14 for Jamaica,19 3 for Mexico,20 and 2 for Haiti. In
         addition, two of the three interceptions from Mexico involved the same species of insect,
         and the interceptions occurred just 1 day apart.

         Although PPQ took actions to ensure that harmful pests did not enter the United States
         from these interceptions, we believe that identifying both commodities and countries that
         are repeatedly associated with actionable pest interceptions could help managers make
         informed decisions on where to target program resources. We also believe that if pest
         interception data were collected on all precleared shipments, PPQ officials could utilize
         the data to conduct trend analyses to determine the occurrence of pests in the precleared
         shipments.

         PPQ was responsible for inspecting commodities at U.S. ports until 2002, when CBP
         assumed the responsibility. PPQ officials stated that earlier versions of the PestID system
         had a field where PPQ staff could indicate if pest interceptions were found in precleared
         shipments. However, they explained that the program dropped the field in the mid-1990s
         to reduce data entry workloads, and because APHIS felt this data was not needed, as the
         program was not making use of the data.

         Preclearance Program management agreed that risk assessments and pest interception
         analysis are important, and can contribute to the development of performance measures.
         PPQ performs pest-risk analysis at the beginning of the acceptance process when a
         country first applies for the Preclearance Program; however, there are no policies to
         perform additional risk assessments throughout the process.21 We note that, while pest



19
   The shipments identified with these interceptions were tested and required additional treatment. They were
   fumigated with methyl bromide.
20
   The shipments identified with these interceptions were tested and it was determined that no actions were needed.
21
   A risk analysis is conducted for each requested commodity in order to determine if entry will be allowed into the
   Preclearance Program. APHIS conducts two types of commodity risk assessments—qualitative and quantitative.
   Qualitative assessments are most common. These assessments estimate risk in qualitative terms, such as “high,”
   “medium,” or “low.” Quantitative assessments often express risk as numerical probability estimates.

6     AUDIT REPORT 33601-0001-23
        interception data is one resource for risk analysis, PPQ may also find other data resources
        that will allow it to comprehensively assess risks throughout the program.

        Documentation and Program Reviews

        The four regional directors and the five area directors of the Preclearance Program, in
        accordance with APHIS guidelines,22 should conduct reviews and site visits to ensure
        program effectiveness and adherence to standards. These guidelines have not been
        updated since the program transitioned to PPQ, and there are no procedures stating how
        program reviews and site visits should be conducted, documented, reviewed, and
        maintained. Preclearance Program officials said that they had performed these reviews,
        but had no records of the results.

        The former PPQ director, who was also the acting Associate Executive Director of Plant
        Health Programs, said he believes that program managers were qualified to perform
        reviews and, therefore, did not establish a written review and reporting process. He
        stated that the Preclearance Program regional directors are supposed to submit a report
        after their reviews; however, he had not seen the reports and did not know if the reports
        were actually retained. At the same time, the Preclearance Program’s acting director
        stated that regional directors evaluate all aspects of program activities every 2 or 3 years.
        However, he could not provide documentation showing the results of these reviews for
        FYs 2011 and 2012.

        Preclearance Program area directors, some of whom are stationed abroad and conduct
        more of the day-to-day administration, conduct site visits of treatment facilities to ensure
        treatments, inspections, and safeguarding activities are properly carried out. When we
        requested documentation to support these site visits, the area directors stated that these
        visits are not required to be documented. One Preclearance Program area director stated
        that she takes personal notes while conducting a site visit, but does not retain copies of
        the notes.

        As a result, by not establishing a documented review and reporting process for
        compliance reviews and site visits, PPQ has no method to comprehensively assess
        operations and ensure the program is operating effectively. Additionally, without
        adequate documentation of site visits and reviews, APHIS has reduced assurance that
        travel expenditures for Preclearance Program officials, totaling $95,815 for FY 2011 and
        $61,085 for FY 2012, were used effectively.23 APHIS needs to implement a structured
        process to ensure that reviews are properly performed, documented, and then reviewed by
        both the regional directors and the program director.

        APHIS has two internal branches that conduct program assessments of APHIS programs:
        the Program Assessment and Accountability Unit and the Review and Analysis Branch.
        However, we note that neither group has conducted a performance review or audit

22
   Commodity Preclearance Program Management Guidelines. These guidelines are in draft form but are currently
   used by the Preclearance Program.
23
   Travel expenditures were incurred by regional and area directors for reviews.

                                                                      AUDIT REPORT 33601-0001-23                7
       evaluating the effectiveness of Preclearance Program operations, although they have
       performed financial reviews of the trust funds upon which the program relies for funding.
       An assessment by these entities could provide another kind of effective internal review.

After we discussed these issues, PPQ officials stated that they will begin a study to evaluate the
operations of the Preclearance Program and will incorporate the results of our audit into this
study. We welcome this step towards greater oversight, and believe that PPQ can take further
measures to strengthen the program. Measuring risk and creating meaningful performance
measures, and an effective internal control environment at all program levels, will encourage
accountability for this critical component of America’s agricultural protection.

Recommendation 1
Develop and implement specific performance measures to assess the effectiveness of the
Preclearance Program as it relates to commodity preclearance activities; and include measures to
determine the effectiveness of all components of the safeguarding system (mitigations,
treatments, and inspections) performed under the operational work plan. Publish these measures
in the Plant Protection and Quarantine Operational Work Plan which supports PPQ’s Strategic
Plan.

Agency Response

In its September 4, 2014, response, APHIS agreed with the intent of this recommendation and
stated that it will review the port of entry data twice a year to determine if the programs are
effectively mitigating the pests. Based on this analysis, APHIS will establish specific
performance measures to address identified gaps. APHIS officials further stated that they would
continue to develop and use performance measures to evaluate and ensure the effectiveness of
the Preclearance Program overall. In addition, the officials stated that these performance
measures will be included in the PPQ Plant Health Programs’ Operational Plan which supports
the PPQ Strategic Plan. These corrective actions will be implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Require Preclearance Offshore Program managers to undergo management controls training to
ensure that all officials understand the significance of good management control practices.

Agency Response

In its September 4, 2014, response, APHIS officials agreed with this recommendation and stated
that on April 3, 2013, Preclearance managers completed management controls training provided
by APHIS’ Financial Management Division. In addition, APHIS developed new guidance on

8    AUDIT REPORT 33601-0001-23
calculating travel time and implemented a Preclearance travel policy. APHIS officials also
stated that they will also identify additional management controls training for all Preclearance
Program managers and require that they complete it by September 30, 2015.

OIG Position
We accept management decision for this recommendation.

Recommendation 3
Revise and update the Preclearance Commodity Management Guidelines to provide clear roles
and responsibilities for all staff and management officials.

Agency Response
In its September 4, 2014, response, APHIS agreed with this recommendation and stated that it
will revise and update the Preclearance Commodity Management Guidelines by September 30,
2015. These new guidelines will include staff positions, a new roles and responsibilities
summary for the Preclearance Program, as well as the internal and external stakeholders of the
program.

OIG Position
We accept management decision for this recommendation.

Recommendation 4
Develop and implement written policies, procedures, and guidelines for performing and
reporting program operation reviews on a regular and recurring basis. As part of these policies,
require program managers to document the results of reviews, including the status of any
recommended corrective actions.

Agency Response
In its September 4, 2014, response, APHIS agreed with this recommendation and stated that in
2014 it completed written guidelines and policies for Preclearance Program trip reports,
operational work plans, preclearance travel, and training requirements for the Locally Employed
Staff. It stated that program managers will now complete their trip report reviews within 10 days
and corrective actions will be completed within 14 days of the manager’s review.

APHIS further stated that it is developing a written policy which outlines how the review process
will be used and how Preclearance managers will be required to document the results of the
review, including the status of any recommended corrective actions on a quarterly basis. This
policy will be communicated to the staff via email and staff meetings. APHIS will also ensure
that additional policies, procedures, and guidelines are developed to support this function as
needed. This recommendation will be implemented by September 30, 2015.
                                                               AUDIT REPORT 33601-0001-23          9
OIG Position
We accept management decision for this recommendation.

Recommendation 5
Require APHIS to develop and implement a process to conduct assessments of risk for the
Preclearance Program activities, ensure measurable outcomes, and implement effective reporting
processes.

Agency Response
In its September 4, 2014, response, APHIS agreed with the intent of this recommendation
and stated that it will develop and implement a program assessment process with
measureable outcomes to ensure that operations are properly performed, documented, and
reviewed by Preclearance management. APHIS also stated that it will develop a written
policy which outlines how this process will be used and will communicate this policy to the
staff through emails and staff meetings by September 30, 2015.

OIG Position:
We accept management decision for this recommendation.

Recommendation 6
Establish a process to collect and analyze data on actionable pest interceptions for precleared
shipments arriving in the United States.

Agency Response
In its September 4 2014, response, APHIS agreed with the intent of this recommendation and
stated that it is revising the Pest Interception Record (PPQ Form 309A) to incorporate a field to
improve tracking of actionable pest interceptions. In addition, APHIS stated that it will rely on
the APHIS-Plant Protection and Quarantine (PPQ) Analysis and Information Management unit,
for data analysis that will allow the Preclearance Program to better evaluate the effectiveness of
each program. This recommendation will be implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.


Recommendation 7
Develop and implement procedures requiring APHIS’ review units to conduct ongoing
assessments or audits of the programmatic aspect of the Preclearance Program.

10     AUDIT REPORT 33601-0001-23
Agency Response
In its September 4, 2014, response, APHIS agreed with the intent of this recommendation
and stated that it will ensure ongoing assessments or audits are conducted on the
programmatic aspects of the Preclearance Program. This recommendation will be
implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.




                                                          AUDIT REPORT 33601-0001-23      11
Finding 2: PPQ Should Fully Utilize Trip Reports as a Monitoring Tool
Although APHIS has taken action on prior OIG recommendations (see Exhibit A) for enhancing
trip reports—documents that detail inspectors’ visits to foreign treatment facilities—44 percent
of the reports we reviewed did not include adequate information for managers to assess the
results of the inspections. We found some trip reports that only contained travel information,
such as hotel and restaurant availability, without any account of the issues found during the
inspections. Also, in those cases where prior trip reports did include recommendations for
improvement, managers were unaware if recommendations were implemented, because they did
not have a system to track recommendations or planned corrective actions. Preclearance
Program officials in Headquarters stated that they trusted area program staff of the Preclearance
Program to provide adequate oversight of foreign facilities, and did not think it was necessary to
establish a specific process for evaluating trip reports to ensure that identified problems and
recommendations were addressed. As a result, managers were unaware of and did not take
action to adequately address Operational Work Plan violations, such as unsanitary facilities. In
one instance, the area director did not follow up with program cooperators to ensure vendors
were replaced after an inspector discovered and rejected pest-infested wooden pallets used to
transport commodities to the United States. Without sufficient oversight and a process to track
deficiencies and ensure their correction, APHIS does not have adequate assurance that its efforts
to prevent harmful pest importation are effective.

GAO’s Internal Control Standards state that agencies should have policies and procedures for
ensuring that review findings are promptly resolved.24 Preclearance Program Trip Report
Guidelines require that the reports identify the type of treatment inspected (such as fumigation,
hot water immersion), any problems found, comments, and recommendations for corrective
actions. Also, the Commodities Preclearance Management Guidelines state that trip reports
should be submitted to the program director and other managers for their review after each
inspector’s temporary duty assignment is complete.25

According to the Acting Preclearance Program Director, trip reports are the only source of
information that managers receive from inspectors regarding the activities at foreign treatment
facilities that ship precleared commodities to the United States. In response to a 2001 OIG
audit26 that found the trip reports did not contain adequate information, APHIS issued guidelines
requiring inspectors to include specific details in their reports. However, in our current review,
we identified 15 of 34 trip reports (44 percent) that still did not contain sufficient information
about the results of an inspection. This occurred because, while area and regional directors
received and filed the trip reports, they did not ensure those reports contained the detailed
information required by the trip report guidelines. Therefore, we concluded that APHIS did not
have adequate management controls in place to ensure report quality.



24
   GAO/AIMD-00-21.3, Standards for Internal Control in the Federal Government, dated November 1999.
25
   These guidelines are in draft form but are currently used by the Preclearance Program.
26
   Audit Report 33099-02-HY, APHIS International Programs (January 25, 2001). Recommendation 2 stated that
   APHIS should “update existing agency reporting policies and procedures to include specific areas that should be
   identified in the trip report.”

12      AUDIT REPORT 33601-0001-23
We reviewed all 33 trip reports, from FYs 2010 through 2012, from 3 selected countries that
treated mangoes.27 In addition, we reviewed one trip report for Vietnam that included treatment
of dragon fruit and rambutan.28 We found that 15 of the 34 trip reports did not state (1) whether
the inspector identified any issues or (2) if corrective actions for identified problems were
addressed or needed.

     ·   Ten reports did not include details of corrective actions taken to address deficiencies
         inspectors found on their inspection, such as unclean facilities, insects or fruit flies found
         in or around a packing facility, overweight fruit, and obsolete machinery that could affect
         the treatment process.29 One report indicated that, although the shipping crates are to be
         sealed at the end of the treatment process to prevent comingling with untreated
         commodities, the inspector found the shipping crates were not sealed.30 The inspector did
         not include a corrective action to address this problem.

     ·   Four reports included mostly travel information, such as accommodations, local
         transportation, and restaurant availability, and did not provide enough information to
         comply with the Preclearance Program Trip Report Guidelines, such as identifying the
         types of treatment used in facilities or any problems found during inspections.

     ·   One inspector reported that he did not read the country’s work plan and did not have the
         skills to identify pests for the particular treatment. The area director supervising this
         inspector said that she was unaware of the inspector’s lack of qualifications because she
         did not review his report.

In addition to these problems with report quality, we found that 12 of the 34 reports contained
27 recommendations for program improvement, which could have addressed some of the work
plan violations. However, program officials explained that they had no way of knowing whether
these recommendations were implemented because they do not track the recommendations.

For example, in January 2012, one inspector reported in a trip report that he found live insects
inside the wood pallets used to transport commodities for export. The inspector rejected the
shipment and requested that the facility find a new pallet vendor. However, the area director
supervising this inspector did not know whether the vendor was timely replaced, and at the time
of our audit, the area director still did not know if the facility had started using a new vendor.
Therefore, the area director did not know whether the facility shipped infested pallets to the
United States. Another inspector recommended in a trip report that a certain orchard, which was
reporting its fruit fly prevalence rates incorrectly, be subject to more stringent sampling of its

27
   Mangoes are the most commonly intercepted of all tropical fruits.
28
   The 34 reports were from Brazil, Chile, Ecuador, and Vietnam. We selected a trip report for Vietnam after
   interviewing a temporary duty (TDY) inspector who performed inspections in Vietnam.
29
   APHIS considers fruit flies among the most destructive pests of fruits and vegetables around the world, and they
   pose the greatest risk to U.S. agriculture. Fruit flies cause economic losses from (1) destruction and spoiling of
   host commodities by larvae, (2) costs associated with implementing control measures, and (3) the loss of market
   share due to restrictions on shipment of host commodities.
30
   The USDA seal is a control mechanism used to secure precleared shipments and deter possible tampering during
   the shipping process.

                                                                         AUDIT REPORT 33601-0001-23                13
commodities during the next import season. However, we found no evidence that the area
director followed up with the cooperator to ensure that the facility was required to implement
more stringent sampling.

Although we view APHIS’ creation of content requirements for trip reports as a positive step,
APHIS still lacks a process to oversee inspectors’ reporting, evaluate trip reports, and make full
use of the reports. APHIS officials agreed that they need to strengthen their review process of
trip reports. Without effective program oversight, management cannot adequately assess the
effectiveness of activities and ensure that harmful pests do not enter the United States.

Recommendation 8
Develop and implement a process requiring Preclearance Program directors to review and
evaluate trip reports to ensure that the reports include relevant operational information, as stated
in trip report guidelines.

Agency Response

In its September 4, 2014, response, APHIS agreed with this recommendation and stated that on
March 18, 2014, it issued a Policy Memo, PM 0003, “Requirements for Trip Reports” outlining
the requirements for Preclearance Program trip reports, and, in May 2014, it initiated a process
for Preclearance Program Assistant Directors and Area Directors to document their review of
program-related trip reports. This process includes the reviewer sending an email to the report
author when the review is completed and then documenting the review on an Excel spreadsheet
maintained on the Preclearance Program SharePoint site. The Director will review the
spreadsheet quarterly to ensure that the trip reports and reviews are completed. Additionally, the
Preclearance Program management team will routinely review trip reports to ensure that all
corrective actions were completed prior to archiving. A new spreadsheet will be started each
fiscal year and maintained on the SharePoint site. In addition, APHIS program managers will
now complete their trip report reviews within 10 days and corrective actions will be completed
within 14 days of the manager’s review.

APHIS also stated that it will develop and implement a written policy that clearly outlines the
process for developing and reviewing trip reports. APHIS will communicate this policy to the
staff via email and staff meetings. This recommendation will be implemented by September 30,
2015.

OIG Position
We accept management decision for this recommendation.




14     AUDIT REPORT 33601-0001-23
Recommendation 9
Implement a system that tracks the recommendations and planned corrective actions included in
the trip reports, and require managers to ensure that all recommendations are addressed and that
appropriate corrective actions are taken.

Agency Response
In its September 4 2014, response, APHIS agreed with this recommendation and stated that
in May 2014 it initiated a tracking process for Preclearance Program managers to document
their review of program trip reports. APHIS further stated that it will develop and
implement a written policy that outlines the process for reviewing trip reports and the
requirement for managers to ensure that all recommendations are addressed and appropriate
corrective actions are taken on a quarterly basis. APHIS further stated that it will
communicate this policy to the staff via email and staff meetings. These actions will be
implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.




                                                           AUDIT REPORT 33601-0001-23         15
Finding 3: Country Work Plans Need Strengthening
Although PPQ guidelines require country work plans to include specific provisions, we found
that all 12 work plans we reviewed did not include criteria for assessing consequences at
facilities with repeated instances of noncompliance.31 In addition, half of the work plans we
reviewed did not include an adequate sampling methodology to ensure anti-pest treatments
performed in foreign countries are effective. Finally, we found that the work plans did not have
a process to ensure that comprehensive annual reviews or annual certification of reviews have
been performed. This occurred because PPQ officials did not provide sufficient guidance and
direction to the countries during the development and approval of the work plans. Also, the
work plan template used as a basis for the documents did not include a penalty section, and the
template has not been revised since the reorganization.32 As a result, APHIS did not penalize
facilities, nor notify country cooperators, even after repeated violations. We also found
significant inconsistencies in cooperator enforcement among different countries.

Work plans, which are formal documents that guide the execution of the overall agreement with
a cooperator, are a major part of the Preclearance Program. These work plans set forth the
specific requirements for a commodity’s entry into the United States. Each country participating
in the Preclearance Program is required to have a work plan that lists specific conditions,
including excessive pest presence, treatment failures, and safety and health concerns for APHIS
personnel that will result in program suspension or termination. Also, the Preclearance
Program Management Guidelines require a sampling methodology section in each work plan.33
However, these guidelines did not require the parameters for sampling to be specified.

Overall, we found that APHIS’ lack of consistent, detailed guidance on key work plan provisions
produced inconsistencies between countries. For instance, while the cooperator in Mexico will
ban a producer for 28 days if it finds an infested shipment (which is the typical life cycle of a
fruit fly), Brazil will only ban the producer for 1 day. According to the APHIS inspector’s trip
report, Brazil does not have an adequate method for tracking shipments, and it is possible the
same infested shipment could be resubmitted for export the next day. While different countries
will inevitably have different approaches for enforcement, we believe that the program should be
aware of such major inconsistencies, and attempt to standardize them.

We judgmentally selected and reviewed 12 of 30 active work plans from FYs 2011 through 2013
for countries that exported mangoes.34 We found several important issues that were unaddressed
in the work plans.



31
   A work plan is the formal, approved document used to guide both the execution and control of preclearance
   commodities specific to the foreign country. A work plan identifies the goals and objectives while detailing the
   work to be performed and specific roles and responsibilities of the parties involved in the project, as well as the
   resources to be contributed by each party.
32
   In October 2010, the Preclearance Program was transferred from APHIS’ IS to PPQ.
33
   These guidelines are in draft form but are currently used by the Preclearance Program.
34
   Country work plans will remain unchanged unless a revision to the document is requested and approved by
   APHIS PPQ, the cooperator, and the country-of-export representative; new signatures and dates are then
   required.

16       AUDIT REPORT 33601-0001-23
        Sampling Methodology

        Seven of the 12 work plans did not provide a complete sampling methodology. For
        example, these work plans did not provide a complete description and definition of a lot,
        including the number of items in a lot.35 The Codex Alimentarius Commission, the
        international standards body for food safety, states a sample size relates to the lot size and
        provides assurance for either good quality or poor quality sampling. 36 An acceptable
        sampling plan determines how lots are inspected and should stipulate the number of items
        to be randomly selected from a lot.

        For example, the work plan for Brazil contains a sampling methodology without
        sufficient details, which we found resulted in a sample that did not represent the entire
        lot. The work plan stated that one way to select samples would be to choose one piece of
        fruit from every three boxes unloaded. The plan also stated that if 6,000 to
        200,000 pieces of fruit were delivered to the facility, the facility should sample
        149 pieces of the commodity. However, the work plan did not state how the selection
        should be made (e.g., 10 pieces per box, 50 per truck). During our review of a trip report
        for one of the treatment facilities under this work plan, the inspector stated that, if a lot
        consisted of several wagon loads, the full sample would be pulled from the first wagon
        only. The inspector did not believe that this sample was representative of the entire lot.

        In a second example, the work plan for the Philippines required a minimum of 30 fruits
        per lot to be randomly selected; however, the work plan neglected to explain what
        constitutes a lot or the conditions under which the minimum sample sizes should be
        increased.

        Penalties

        The 12 work plans we reviewed did not include provisions for penalties in the event of a
        work plan violation for issues, such as repeated unsanitary conditions. (See Exhibit B.)
        This occurred because APHIS’ work plan template, which is used as the basis for the
        plans, did not include a penalty section for specific types of violations; therefore, the
        work plans themselves did not incorporate this crucial enforcement tool.

        The lack of consequences means that repeated violations occur without being sufficiently
        addressed. Two trip reports for a facility covered by the Ecuadorian work plan showed
        that one inspector reported in December 2011 that the facility did not have a well-
        implemented manufacturing system with good cleaning practices. The inspector further
        stated that some areas of the facility were not properly cleaned and he required the
        facility to clean them again. In January 2012, a second inspector reported the same issue

35
   A lot is a definite quantity (e.g., number of pounds, number of boxes, one truckload) of some commodity
   manufactured or produced under conditions which are presumed uniform.
36
   The Codex Alimentarius Commission develops harmonized international food standards, guidelines, and codes of
   practice to protect the health of the consumers and ensure fair practices in the food trade. The Commission also
   promotes coordination of all food standards work undertaken by international governmental and nongovernmental
   organizations.

                                                                       AUDIT REPORT 33601-0001-23              17
        with the cleanliness of the facility and this inspector also requested the facility to be
        cleaned again. However, neither inspector assessed compliance penalties against this
        facility, nor did the regional director of the Preclearance Program issue warning letters to
        the cooperator, notifying it of the sanitation violations. The regional director stated that
        he does not issue compliance penalties such as warning letters because he depends on the
        inspectors to correct any issues at the time they occur. While we found evidence that the
        inspector did direct the facility to clean the area, a verbal warning from the inspector was
        clearly not effective, as the facility still had unsanitary conditions during a subsequent
        inspection. Also, if the cooperators are not informed of the work plan violations, they
        cannot ensure that the violations in their facilities are corrected.

        Important safeguards were also not listed in the work plans as requiring penalties, such as
        failure to implement securing treated commodities to ensure that they do not become
        infested after treatment. Two of the 12 work plans we examined did not include
        compliance penalties for using unsecured holding rooms to store commodities that had
        been treated.37 The holding rooms must be separated from the treatment area and secured
        with screens, air blowers, or a combination of methods.

        In addition, 11 of the 12 work plans did not specify the suspension period for producers
        who deliver an infested commodity to a facility. As stated earlier, without a standardized
        suspension period, the producer could submit the infested shipment for export again on
        the following day.

        Annual Updates

        Nine of the 12 work plans did not include a provision requiring them to be updated and
        approved annually. Two of these nine countries had violations that could necessitate
        changes or updates to a work plan.38 In addition, 10 of the 12 work plans were not
        certified annually, indicating that reviews were conducted and changes were addressed.
        For example, 2 of the 10 work plans, which needed annual approval as they involved
        irradiation treatment of commodities, had no record or documentation that either of the
        plans had been approved or updated as required.39 An area director stated that if
        inspectors do not identify any problems or violations, then the work plan is considered in
        compliance with program guidelines and no review is necessary. However, since
        managers do not review inspectors’ trip reports, which identify problems within the
        preclearance process, management may not be aware of the potential problems that
        would necessitate changes in the work plan (see Finding 2).

One regional director stated that the standardization of sampling methodologies and compliance
penalties was a task that officials had discussed but, due to time constraints, they have not
implemented additional guidance. We believe PPQ needs to develop standardized criteria for
assessing all compliance penalties, and ensure penalties and enforcement actions are fair and

37
   A holding room is a secure room where commodities are stored in order to prevent them from becoming infested
   with pests after treatment is completed.
38
   Brazil and Ecuador had violations with the sampling methodology.
39
   Title 7, Code of Federal Regulations, section 305.9(e)(2)(i), dated July 20, 2012.

18      AUDIT REPORT 33601-0001-23
equitable for all countries. Once developed, this information should be included in country work
plans, as well as an updated and revised work plan template that is annually reviewed.

Since the Preclearance Program provides assurance that only commodities that meet program
standards are labeled as precleared, officials should set standard requirements for foreign
cooperators and properly notify the foreign authorities of violations at facilities.

Recommendation 10
Ensure Operational Work Plans for the commodity Preclearance Programs include
commodity specific sampling methodologies and lot sizes; and that the term “lot” is clearly
defined in each Operational Work Plan.

Agency Response

In its September 4, 2014, response, APHIS officials agreed with the intent of this
recommendation and stated that in March 2014, they developed a template which
standardizes the format, content, and review process for the Preclearance Program
operational work plans and as new Preclearance Programs are established, it will implement
the standardized work plan template.

APHIS also stated that it will ensure that each operational work plan includes a definition for
a "lot" and that sampling procedures are included and consistent for each commodity type. If
modifications are needed to a work plan, APHIS will coordinate discussions with the
appropriate NPPO and cooperator to gain consensus on revisions to the work plan. APHIS
also stated that in some cases, variances will occur based upon the level of pest risk and
negotiated trade agreements. APHIS stated that this recommendation would be implemented
by September 30, 2015.

OIG Position

We do not accept management decision for this recommendation. To reach management
decision, APHIS needs to agree that it will update the operational workplans for existing
Preclearance Program participants, ensure that they are in line with the new standardized work
plans, and include a definition for a “lot” and commodity specific sampling methodologies.

Recommendation 11
Develop a standard set of consequences for violation of compliance requirements (such as
sanitation, unsecured holding rooms, and suspension terms for rejected commodities) and
include them in the Preclearance Program’s work plan template. Require that these penalties be
included as a part of each existing work plan. Review the template annually, and determine if
updates are needed.




                                                            AUDIT REPORT 33601-0001-23            19
Agency Response
In its September 4, 2014 response, APHIS officials agreed with the intent of this
recommendation and stated that it would evaluate incorporating progressive enforcement actions
to address reoccurring issues based on severity and risk. They further stated that they would
conduct a review of Preclearance Program operational work plans annually to ensure that the
listed consequences, based on legal authority and level of risk, are standardized to the extent
possible. If modifications are needed to a work plan, APHIS will coordinate discussions with the
appropriate NPPO and cooperator. APHIS stated that this recommendation will be completed by
September 30, 2015.

OIG Position

We do not accept management decision for this recommendation. APHIS needs to agree that it
will develop and include a standard set of consequences in each work plan template. In cases
where these consequences cannot be enforced, justification should be required and documented
in the country’s work plan. In addition, APHIS needs to agree that it will develop and include
provisions in the work plan explaining that recurring violations will result in progressive
enforcement actions

Recommendation 12
Develop and implement a process for comprehensive annual review of work plans to ensure that
any necessary recommendations (stemming from issues such as changes in regulations, different
treatment methods, better business practices, repeated violations), are identified and appropriate
revisions are made. This process should include a certification of each work plan to ensure that
reviews have been performed annually.

Agency Response

In its September 4, 2014, response, APHIS agreed with the intent of this recommendation and
stated that work plan revisions are made on an as-needed basis and that it will ensure
consistency in the documentation of the annual reviews. APHIS further stated that in March
2014, it developed a template which standardizes the format, content, and review process for
the Preclearance Program operational work plans and includes a section to certify that the
annual review was completed. APHIS will develop and implement a written policy that
outlines this annual review process and will communicate this policy to the staff via email and
staff meetings by September 30, 2015.

OIG Position

We accept management decision for this recommendation.




20     AUDIT REPORT 33601-0001-23
Finding 4: APHIS Needs to Develop and Implement a Formal On-the-Job
Training Process for LES Inspectors

APHIS did not establish a formal training process for Locally Employed Staff (LES) inspectors
to ensure they have the skills and qualifications needed to perform their duties. The regional
director stated that LES inspectors are provided on-the-job training, instead of formal training.
However, APHIS did not establish standards, lesson plans, or goals for the on-the-job training,
nor could it provide any documentation showing the type of on-the-job training activities
performed by the inspectors; therefore, we were unable to determine whether inspectors have the
skills needed to perform inspection activities for the Preclearance Program. This occurred
because program officials did not prioritize creating formal on-the-job training, and stated that
the agency cannot afford to send LES inspectors to the United States to attend formal training.
As a result, APHIS PPQ management has decreased assurance that LES inspectors are trained
based on approved training material. For example, the lack of a formal PPQ-approved
on-the-job training program allows for inconsistent training. Also, without a tracking system,
PPQ management would have difficulty determining which LES inspectors are not up to date on
current inspection techniques.

GAO Standards for Internal Controls state that management has the responsibility to identify the
appropriate knowledge and skills needed by its employees, and to provide them with necessary
training.40 In addition, the Commodity Preclearance Program Management Guidelines41 state
that LES42inspectors should only be considered for conducting inspections when appropriate
APHIS-approved course work has been completed.

We discussed the training of LES inspectors with the regional and area director responsible for
the South America Region.43 They informed us that, although a few LES inspectors have
completed the required classroom training in the United States, the agency has not maintained
any records showing their completion. Further, they stated that there has never been a push to
spend money on classroom training for LES inspectors because it is cost-prohibitive for them to
travel to the United States. The regional director further stated the PPQ Professional
Development Center began developing an online training course for LES inspectors, but since
the person in charge of its development retired, the project has become a lower priority.

The current process partners new LES inspectors with experienced LES inspectors who are
responsible for training them. APHIS does not keep records of this training at the national office
and does not provide APHIS-approved standards that the training must meet. The on-the-job
training program also has no guidance on the required qualifications of the trainer, the length of
instruction, or the areas required to be covered (e.g., sanitation, safety, treatment procedures)
during the training. The regional director stated that the area directors maintain a file showing
the training provided and additional training that is needed. On two occasions, we requested


40
   GAO Standards for Internal Control in the Federal Government, November 1999.
41
   Commodity Preclearance Program Management Guidelines. These guidelines are in draft form but are currently
   used by the Preclearance Program.
42
   Locally Employed Staff were previously known as Foreign Service Nationals.
43
   Thirty-three of the 34 trip reports we reviewed were from the South America Region.

                                                                   AUDIT REPORT 33601-0001-23             21
PPQ officials provide us with information showing the type of on-the-job training provided to
the LES inspectors and the types of commodity treatments the LES inspectors were certified to
perform. Management was unable to meet our request for data on this issue because they did not
have this information.

While the LES inspectors may be qualified to conduct the required commodity inspections and
treatments, APHIS could not provide us with any documentation to support these qualifications
or to show that the inspectors received training to develop the knowledge, skills, and abilities
needed to effectively detect and prevent pests and diseases.

We did find that APHIS maintains rosters of trained inspectors authorized to do various types of
inspection, such as hot water treatment, vapor treatments, and pest types. However, these rosters
were not updated, as 23 of the 34 trip reports we examined were submitted by inspectors not
mentioned on the rosters. The regional director stated that the roster is used to rotate and assign
LES inspectors to various treatment facilities, not to track the training status of the inspectors.
While rotating inspectors is one useful function of the roster, we believe that this could also be
an important tool to ensure that inspectors assigned to certain facilities are capable of doing their
work.

While resources may be a limitation to bringing LESs to the United States for formal training,
APHIS should ensure that the on-the-job training program is comparable to the APHIS treatment
and inspection coursework provided to non-LES inspectors. In addition, Preclearance Program
officials in the national office should keep ongoing documentation of the training provided to
LES inspectors, and periodically review the files to ensure that the area directors have identified
and scheduled any needed training.

During followup discussions, the Associate Executive Director of Plant Health Programs stated
that they have begun to develop policies and procedures for on-the-job training and have
established a training library that will store all training documents. The regional director also
stated that they have begun allocating a portion of the trust funds for training needs. While
APHIS is taking positive steps towards developing and funding an on-the-job training program
for the LES inspectors, it should have procedures in place to ensure that the inspectors are trained
in accordance with approved training techniques.

Recommendation 13

Develop a formal on-the-job training program for LES inspectors that will ensure they are
trained in a manner equivalent to formal APHIS training in the United States. Include in this
program specific standards and course lengths that will enable them to adequately learn the
required inspection techniques, processes, and oversight activities for their assignments.

Agency Response

In its September 4, 2014, response, APHIS agreed with this recommendation and stated that on
July 31, 2013, it issued Policy Memo, PM 0001, titled “Training Requirements for Full-Time
Locally Employed Staff Preclearance Inspectors”. The policy includes requirements for

22     AUDIT REPORT 33601-0001-23
developing and maintaining standard operating procedures for the programs and documenting
completed on-the-job training. This training provides U.S. inspector equivalent training and
training records will be maintained on the Preclearance SharePoint site. APHIS also stated that it
will coordinate with PPQ’s Professional Development Center and the International Services
program area to determine if additional technical training for the LES is necessary. If further
training is required, APHIS will provide this training via distance learning methods, including
web-based training and self-instructional courses. In addition, a syllabus detailing the course
descriptions, learning objectives and course length will be developed and maintained on a
SharePoint site. This recommendation will be implemented by September 30, 2015.

OIG Position:
We accept management decision for this recommendation.

Recommendation 14

Require that each cooperative service agreement or other applicable agreement between APHIS
and the cooperator include a provision stating that a specific portion of the trust funds will be
allocated toward training Preclearance Program inspectors.

Agency Response

In its September 4, 2014, response, APHIS agreed with the intent of this recommendation and
stated that the Cooperative Service Agreement outlines the financial requirements for the parties
entering into the cooperative agreement and the training costs for the Preclearance Program
inspectors are included in the annual financial operating plans. APHIS further stated that this
recommendation was complete and would be fully implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.

Recommendation 15

Create and implement a tracking tool that records all inspector training, including courses taken,
completion dates, and future training needs. Retain documentation of the completed training in
the employees’ training records.

Agency Response

In its September 4, 2014, response, APHIS agreed with this recommendation and stated that in
2014, it initiated a process to track LES inspector training, including courses, completion dates,
and additional training needs. This process includes documenting personnel, training courses,
and completion dates on a spreadsheet that is maintained at the local level and on the

                                                             AUDIT REPORT 33601-0001-23         23
Preclearance Program SharePoint site. APHIS also stated that Preclearance Program
management is working to ensure that all Area Directors are using SharePoint for this activity.
APHIS will explore additional options to ensure the most effective mechanism for tracking and
monitoring. This recommendation will be implemented by September 30, 2015.

OIG Position
We accept management decision for this recommendation.

Recommendation 16
Revise the Preclearance Program Management Guidelines to allow LES inspectors to perform
primary inspections only after completion of on-the-job training

Agency Response

In its September 4, 2014, response, APHIS agreed with this recommendation and stated that it
will review and revise the Preclearance Commodity Management Guidelines to require the LES
inspectors to complete on-the-job training prior to conducting inspections. The responsibilities
of the LES inspectors will be described in the Guidelines to ensure inspection consistency and
documentation for the Preclearance Program staff. This recommendation will be implemented
by September 30, 2015.

OIG Position
We accept management decision for this recommendation.




24     AUDIT REPORT 33601-0001-23
Scope and Methodology 
Our audit covered APHIS’ management controls over its PPQ Preclearance Program between
FY 2010 through FY 2013. We performed our audit fieldwork from June 2012 through
December 2013 at APHIS Headquarters in Riverdale, Maryland. We did not review or assess the
integrity of import data in PPQ’s Information Technology (IT) system, and we do not provide any
assurance on the data maintained within those systems.

We assessed the effectiveness of the program in detecting and eradicating problematic pests and
plants. Specifically, we examined whether APHIS has facilitated safe trade by monitoring the
movement of precleared commodities, protecting against the introduction of pests, and
adequately assisting exporters in meeting the entry requirements. We also assessed APHIS’ final
actions in implementing audit recommendations made in a previous OIG report.44

We determined that, during the time period of our review, there were 30 countries with over
400 treatment facilities participating in the Preclearance Program. In addition, we determined
that over 88 commodities were imported through the Preclearance Program. Of these
88 commodities, mangoes accounted for the largest volume of imported commodities between
January 2009 and June 2012.45 In addition, APHIS officials stated that mangoes are the most
widespread and commonly intercepted of all tropical fruits. Based on the volume of the imports
to the United States and the risk of infestation, we selected mangoes for our review.

We reviewed the operations for Brazil, Chile, and Ecuador because, of the 12 countries that
imported mangoes to the United States through the Preclearance Program, these countries had
current trip reports completed during FYs 2010 through 2012.46

We selected all 33 trip reports from these 3 countries for FYs 2010 through 2012 and 1 trip
report for Vietnam, and judgmentally selected 12 of 30 active work plans, during FYs 2011
through 2013.47

We performed the following steps to accomplish our audit objectives:

     ·   Reviewed information obtained from inspectors’ trip reports, Review and Analysis Branch’s
         review of trust funds, the 2010 APHIS’ Program Assessment and Accountability Report, and
         foreign country work plans.

     ·   Reviewed and assessed the effectiveness of preclearance treatment regulations and
         guidance over preclearance commodities.



44
   Audit Report 33099-02-HY, APHIS International Programs (January 25, 2001).
45
   Mangoes accounted for 26 percent (817,650,587/3,099,424,827 kilograms) of all commodities imported into the
   U.S. under the Preclearance Program from January 2009 to June 2012.
46
   Between January 2009 through June 2012, 22 percent (181, 645,512/817,650,587 kilograms) of mangoes were
   imported from these three countries.
47
   We reviewed 33 reports from the countries of Brazil, Chile, and Ecuador. We selected a trip report for Vietnam
   after interviewing a TDY inspector who performed inspections in Vietnam.

                                                                       AUDIT REPORT 33601-0001-23              25
     ·   Interviewed program officials to determine the roles and responsibilities related to
         detecting and mitigating pests for preclearance commodities and products.

     ·   Interviewed the Preclearance Program’s business director regarding management controls
         over trust funds, and PPQ’s financial manager regarding trust fund oversight.

     ·   Interviewed area directors and a regional director to evaluate APHIS’ efforts to facilitate
         safe trade.

     ·   Interviewed program officials to determine the role of DHS’ CBP in the inspection of
         preclearance commodities at U. S. ports of entry.

     ·   Obtained and reviewed the Joint Quality Assurance Reports for CBP inspections and
         functions at U.S. ports of entry.

     ·   Interviewed area directors and a regional director to determine supervisory
         responsibilities for preclearance activities performed in foreign countries.

     ·   Assessed the operational information in APHIS inspectors’ trip reports.

     ·   Evaluated oversight and revisions of foreign country work plans.

     ·   Interviewed program officials about required training for APHIS inspectors.

     ·   Interviewed program officials both in the United States and abroad to determine the
         requirements for compliance and oversight responsibilities of foreign country facility
         operations.

     ·   Reviewed the information in APHIS’ Pest ID System and APHIS’ Work
         Accomplishment Data System to track actionable and unactionable pests and the
         agency’s risk assessments. However, we did not review the IT system or assess the
         integrity of the data in the system.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




26       AUDIT REPORT 33601-0001-23
Abbreviations 

APHIS ....................................Animal and Plant Health Inspection Service
CBP ........................................Customs and Border Protection
CSA ............................... Cooperative Service Agreement
DHS........................................Department of Homeland Security
FY ..........................................Fiscal Year
GAO .......................................Government Accountability Office
GPRA .....................................Government Performance and Results Act
IS ............................................APHIS’ International Services Division
IT ............................................Information Technology
LES ........................................Locally Employed Staff
OIG ........................................Office of Inspector Genera
OMB ......................................Office of Management and Budget
Pest ID ....................................APHIS’ Pest Identification System
PPQ ........................................Plant Protection and Quarantine
Preclearance Program ............Preclearance Offshore Program
TDY .......................................Temporary Duty
USDA.....................................Department of Agriculture




                                                                   AUDIT REPORT 33601-0001-23   27
Exhibit A: Prior Audit Recommendations  
This exhibit represents prior audit recommendations for APHIS International Programs, Audit
Report 33099-02-HY.48
                                                                                                     Was the
 Finding Recommendation                                                                          Recommendation
                                              Prior Audit Recommendation*
 Number      Number                                                                             Addressed? (Yes or
                                                                                                       No)
      1                   2              Update existing agency reporting                              Yes
                                         policies and procedures to include
                                         specific areas that should be identified
                                         in the trip report.
      2                   3              Require IS and PPQ officials to follow                            Yes
                                         up on trip reports not submitted within
                                         the established timeframe and ensure
                                         that a report is received for each
                                         country in which an assessment is
                                         conducted during the year. Take
                                         appropriate administrative action if the
                                         reports are not submitted.

* Recommendation 1 required APHIS to complete the Veterinary Services national port manual and develop related
procedures to include specific instructions for the responsibilities of the port veterinarian's certifying animals free of
communicable diseases and conducting inspections and quarantines of animals at ports of entry.




48
  There were three recommendations in Audit Report 33099-02-HY, APHIS International Programs (January
2001), but only Recommendations 2 and 3 were applicable to the objectives of our current audit. Therefore, this
exhibit only includes actions taken on Recommendations 2 and 3.

28        AUDIT REPORT 33601-0001-23
Exhibit B: Work Plan Discrepancies  
This exhibit presents the 12 work plans reviewed and the compliance issues noted.


                                     Sampling            Work Plans Did Not           Work Plans Did
                                    Methodology            Include Penalty              Not Contain
             Country
                                     Was Not                Provisions for             Provisions for
                                     Adequate             Repeat Violations           Annual Reviews

     Brazil49                             X50                       X
     Costa Rica                                                     X                          X
     Dominican Republic                                             X                          X
     Ecuador                              X51                       X                          X
     Guatemala                            X                         X                          X
     Haiti                                                          X                          X
     India52                                                        X
     Mexico                                X                        X                          X
     Nicaragua                             X                        X                          X
     Peru                                  X                        X                          X
     Philippines                           X                        X                          X
     Thailand                                                       X
              Total                        7                        12                         9




49
   Brazil had a provision in its work plan requiring annual reviews.
50
   Brazil’s sampling methodology was not specific enough to ensure the sample represents the entire lot.
51
   The sampling methodology used in Ecuador, Guatemala, Mexico, Nicaragua, Peru, and the Philippines did not
contain the definition of a lot.
52
   India and Thailand used irradiation treatments; therefore, annual reviews were required.

                                                                    AUDIT REPORT 33601-0001-23                 29
Agency's Response 




                    USDA’S
           ANIMAL AND PLANT HEALTH
              INSPECTION SERVICE
           RESPONSE TO AUDIT REPORT




30   AUDIT REPORT 33601-0001-23
Animal and Plant          MEMORANDUM
Health Inspection
Service

1400 Independence, S.W.
                          TO:                Gil H. Harden                            09/04/14
Washington, DC 20250                         Assistant Inspector General for Audit
Voice: 202-799-7163
Fax: 202-690-0472         FROM:             Kevin Shea /s/
                                            Administrator

                          SUBJECT: APHIS Response and Request for Management Decisions on OIG Report,
                                   “Plant Protection and Quarantine Preclearance Offshore Program”
                                   (33601-01-23)

                          Thank you for the opportunity for the Animal and Plant Health Inspection Service
                          (APHIS) to comment on this report. APHIS appreciates this review and believes that
                          the recommendations will strengthen the Preclearance Program processes.

                          APHIS facilitates the safe trade of agricultural products and safeguards U.S.
                          agriculture and national resources against the entry, establishment, and spread of
                          economically and environmentally significantly pests. APHIS uses a cohesive and
                          overlapping safeguarding approach to coordinate offshore, port of entry, surveillance,
                          detection, and response activities. This approach reduces the likelihood that a gap in
                          the system will place American agriculture at risk.

                          APHIS’ Preclearance Program, safeguards American agriculture by reducing the pest
                          threat on fruits, vegetables, and nursery stock in the originating country before it is
                          shipped to the United States. APHIS, in partnership with the exporting country,
                          implements requirements for growers and packing facilities, as well as specific
                          inspection techniques, treatments, and certification processes. Precleared shipments
                          are also accompanied by inspection summary documents confirming that shipments
                          meet APHIS requirements. This systematic process, with safeguarding measures in
                          place at each step, is significantly reducing the risk of infested agricultural
                          commodities arriving in the United States. For example, the APHIS preclearance
                          program recently intercepted European grapevine moth, a significant quarantine pest,
                          on new host material. As a result APHIS was able to implement new entry
                          requirements and safeguarding measures for this commodity in a timely manner while
                          facilitating safe trade.

                          While not all of our processes have been documented, APHIS continues to have
                          management control measures to ensure American agriculture is protected from
                          foreign pests and diseases. APHIS acknowledges that improvements are still needed
                          for the Preclearance Program.




                          An Equal Opportunity Provider and Employer
Page 2
Beginning in 2011, APHIS implemented changes such as the standardization of financial
management and development of management oversight measures and policies that improved
accountability, consistency, and program management. In 2013, APHIS initiated a Business
Process Improvement project. Through this project, APHIS implemented new monitoring
procedures for Preclearance Program activities, training requirements for locally employed staff,
and standard operating procedures for the overall program. In conclusion, APHIS remains
committed to ensuring that the necessary management control measures and documentation are
in place for the Preclearance Program.

Recommendation 1: Develop and implement specific performance measures to assess the
effectiveness of the Preclearance Program as it relates to commodity preclearance
programs; and include measures to determine the effectiveness of all components of the
safeguarding system (mitigations, treatments, and inspections) performed under the
operational work plan. Publish these measures in the Plant Protection and Quarantine
Operational Work Plan which supports PPQ’s Strategic Plan.

APHIS response: APHIS agrees with the intent of this recommendation and has measures in
place to ensure the effectiveness of the Preclearance Program. APHIS mitigates plant pests
through systems approaches, safeguarding measures, inspections, and approved treatments. In
the event that there is a mitigation, treatment or inspection failure, APHIS rejects the shipment
prior to export and assesses corrective actions.

APHIS will review the port of entry inspection data twice a year to determine if the programs are
effectively mitigating the pests. Based on this analysis, APHIS established specific performance
measures to address identified gaps.

APHIS will continue to develop and use performance measures to evaluate and ensure the
effectiveness of the Preclearance Program overall. These performance measures will be included
in the PPQ Plant Health Programs’ Operational Plan which supports the PPQ Strategic Plan. This
recommendation will be implemented by September 30, 2015.

Recommendation 2: Require Preclearance and Offshore Program managers to undergo
management control training to ensure that all officials understand the significance of good
management control practices.

APHIS response: APHIS agrees with this recommendation. On April 3, 2013, Preclearance
managers completed management control training provided by APHIS’ Financial Management
Division. APHIS subsequently developed new guidance on calculating travel time and
implemented a Preclearance travel policy. APHIS will also identify additional management
control training for all Preclearance Program managers and require that they complete it by
September 30, 2015.

Recommendation 3: Revise and update the Preclearance Commodity Management
Guidelines to provide clear roles and responsibilities for all staff and management officials.

APHIS response: APHIS agrees with this recommendation. APHIS will revise and update the
Preclearance Commodity Management Guidelines. The new guidelines will include staff
Page 3
positions, the new roles and responsibilities summary for the Preclearance Program, as well as
the internal and external stakeholders of the program. This recommendation will be implemented
by September 30, 2015.

Recommendation 4: Develop and implement written policies, procedures, and guidelines
for performing and reporting program operation reviews on a regular and recurring basis.
As part of these policies, require program managers to document the results of reviews,
including the status of any recommended corrective actions.

APHIS response: APHIS agrees with this recommendation. The Preclearance Program has
conducted program reviews and implemented changes to the programs based on these reviews.

In January 2013, APHIS initiated a Business Process Improvement project to review the
Preclearance Program to identify opportunities to streamline and standardize processes while
maintaining the integrity of safeguarding systems. As a result, APHIS is implementing new
monitoring procedures and standard operating procedures. APHIS also restructured the
Preclearance staff to consolidate and streamline the functions and to strengthen financial and
operational oversight.

In 2014, APHIS completed written guidelines and policies for Preclearance Program trip reports,
operational work plans, preclearance travel, and training requirements for the Locally Employed
Staff. APHIS program managers will now complete their trip report reviews within 10 days and
corrective actions will be completed within 14 days of the manager’s review.

APHIS is developing a written policy which outlines how the review process will be used and
how Preclearance managers will be required to document the results of the review, including the
status of any recommended corrective actions on a quarterly basis. This policy will be
communicated to the unit via email and staff meetings. APHIS will ensure that additional
policies, procedures, and guidelines are developed to support this function as needed. This
recommendation will be implemented by September 30, 2015.

Recommendation 5: Require APHIS to develop and implement a process to conduct
assessments of risk for the preclearance program activities; ensure measurable outcomes,
and reporting processes.

APHIS response: APHIS agrees with the intent of this recommendation. Before a commodity is
approved for entry into the United States, APHIS completes a pest risk assessment (PRA) to
assess potential plant pest risks related to that commodity. Subsequently, APHIS develops risk
mitigation measures to address any identified pest risk. These risk mitigation measures are
included in the work plan and monitored when the program is operating to ensure that the
Preclearance Program is effectively mitigating any potential pest risk.

APHIS will develop and implement a program assessment process with measureable outcomes to
ensure that operations are properly performed, documented, and reviewed by Preclearance
management. APHIS will develop a written policy which outlines how this process will be used.
Page 4
This policy will be communicated to the unit via email and staff meetings. This recommendation
will be implemented by September 30, 2015.

Recommendation 6: Establish a process to collect and analyze data on actionable pest
interceptions for precleared shipments arriving in the United States.

APHIS response: APHIS agrees with the intent of this recommendation. APHIS receives notice
when an actionable pest is detected at the port of arrival on precleared shipments. However, data
collection has not been as robust as necessary to allow for effective analytical analysis. The Pest
Interception Record (PPQ Form 309A) does not incorporate a field to track actionable pest
interceptions for precleared shipments. To address this issue and allow for more effective data
collection, APHIS is revising this form to improve tracking of actionable pest interceptions. In
addition, APHIS will rely on the APHIS-Plant Protection and Quarantine (PPQ) Analysis and
Information Management unit for data analysis that will allow the Preclearance Program to better
evaluate the effectiveness of each program. This recommendation will be implemented by
September 30, 2015.

Recommendation 7: Develop and implement procedures requiring APHIS’ review units to
conduct ongoing assessments or audits of the programmatic aspect of the Preclearance
Program.

APHIS response: APHIS agrees with the intent of this recommendation. APHIS will ensure on-
going assessments or audits are conducted on the programmatic aspects of the Preclearance
Program. This recommendation will be implemented by September 30, 2015.

Recommendation 8: Develop and implement a process requiring Preclearance Program
directors to review and evaluate trip reports to ensure that the reports include relevant
operational information, as stated in trip report guidelines.

APHIS response: APHIS agrees with this recommendation. On March 18, 2014, APHIS issued a
Policy Memo “Requirements for Trip Reports” (PM 0003) outlining the requirements for
Preclearance Program trip reports, and, in May 2014, initiated a process for Preclearance
Program Assistant Directors and Area Directors to document their review of program-related trip
reports. This process includes the reviewer sending an email to the report author when the review
is completed and then documenting the review on an Excel spreadsheet maintained on the
Preclearance Program SharePoint site. The Director will review the spreadsheet quarterly to
ensure that the trip reports and reviews are completed. Additionally, the Preclearance Program
management team will routinely review trip reports to ensure that all corrective actions were
completed prior to archiving. A new spreadsheet will be started each fiscal year and maintained
on the SharePoint site. APHIS program managers will now complete their trip report reviews
within 10 days and corrective actions will be completed within 14 days of the manager’s review.

APHIS will develop and implement a written policy that clearly outlines the process for
developing and reviewing trip reports. APHIS will communicate this policy to the unit via email
and staff meetings. This recommendation will be implemented by September 30, 2015.
Page 5
Recommendation 9: Implement a system that tracks the recommendations and planned
corrective actions included in the trip reports, and require managers to ensure that all
recommendations are addressed and that appropriate corrective actions are taken.

APHIS response: APHIS agrees with this recommendation. While APHIS had an informal
process in place, in May 2014, APHIS initiated a tracking process for Preclearance Program
managers to document their review of program trip reports. APHIS will develop and implement
a written policy that outlines the process for reviewing trip reports and the requirement for
managers to ensure that all recommendations are addressed and appropriate corrective actions
are taken on a quarterly basis. We will communicate this policy to the unit via email and staff
meetings. This recommendation will be implemented by September 30, 2015.

Recommendation 10: Ensure Operational Work Plans for the commodity Preclearance
Program include commodity specific sampling methodologies and lot sizes; and that the
term “lot” is clearly defined in each Operational Work Plan.

APHIS response: APHIS agrees with the intent of this recommendation. Based upon the pest risk
assessment, sampling size and definitions are developed by a Preclearance Advisory Group, and
agreed upon by the National Plant Protection Organization (NPPO), when establishing a new
Preclearance Program. Currently, each operational work plan includes sampling size and
methodology.

In March 2014, APHIS developed a template which standardizes the format, content, and review
process for the Preclearance Program operational work plans. As new Preclearance Programs are
established, APHIS will implement the standardized work plan template. During this review,
APHIS will ensure that each operational work plan includes a definition for a “lot” and that
sampling procedures are included and consistent for each commodity type. If modifications are
needed to a work plan, APHIS will coordinate discussions with the appropriate NPPO and
cooperator to gain consensus on revisions to the work plan. In some cases, variances will occur
based upon the level of pest risk and negotiated trade agreements. This recommendation will be
implemented by September 30, 2015.

Recommendation 11: Develop a standard set of consequences for violation of compliance
requirements (such as sanitation, unsecured holding rooms, and suspension terms for
rejected commodities) and include them in the Preclearance Program’s work plan
template. Require that these penalties be included as a part of each existing work plan.
Review the template annually, and determine if updates are needed.

APHIS response: APHIS agrees with the intent of this recommendation. The Preclearance
Program work plans include consequences (for example, shipment rejection) for work plan
violations or other issues identified during field, treatment, or inspection activities. In
addition, APHIS conducts follow up discussions with the producer and packing house to ensure
that issues are addressed. APHIS will evaluate incorporating progressive enforcement actions to
address reoccurring issues based on severity and risk.
Page 6
For example, as a result of pest interceptions on amaranth from Jamaica, APHIS implemented a
series of mitigations to address the issue. After identifying additional issues through continued
monitoring, APHIS removed the commodity from the preclearance program.

APHIS will conduct a review of Preclearance Program operational work plans annually to ensure
that the listed consequences, based on legal authority and level of risk, are standardized to the
extent possible. If modifications are needed to a work plan, APHIS will coordinate discussions
with the appropriate NPPO and cooperator. This recommendation will be completed by
September 30, 2015.

Recommendation 12: Develop and implement a process for comprehensive annual review
of work plans to ensure that any necessary recommendations (stemming from issues such
as changes in regulations, different treatment methods, better business practices, repeated
violations, etc.) are identified and appropriate revisions are made. This process should
include a certification of the work plan to ensure that reviews have been performed
annually.

APHIS response: APHIS agrees with the intent of this recommendation. APHIS conducts annual
reviews of the operational work plans in cooperation with the NPPO and cooperators. Work plan
revisions are made on an as-needed basis. APHIS will ensure consistency in our documentation
of these reviews.

In March 2014, APHIS developed a template which standardizes the format, content, and review
process for the Preclearance Program operational work plans that includes a section to certify
that the annual review has been completed. APHIS will develop and implement a written policy
that outlines this annual review process and will communicate this policy to the unit via email
and staff meetings. This recommendation will be implemented by September 30, 2015.

Recommendation 13: Develop a formal on-the-job training program for Locally Employed
Staff (LES) inspectors that will ensure they are trained in a manner equivalent to formal
APHIS training in the United States. Include in this program specific standards and course
lengths that will enable them to adequately learn the required inspection techniques,
processes, and oversight activities for their assignments.

APHIS response: APHIS agrees with this recommendation. On July 31, 2013, APHIS issued a
Policy Memo titled “Training Requirements for Full-Time Locally Employed Staff Preclearance
Inspectors” (PM 0001). The requirement includes developing and maintaining standard operating
procedures for the programs and documenting completed on-the-job training. This training
provides U.S. inspector equivalent training and training records will be maintained on the
Preclearance SharePoint site. APHIS will coordinate with PPQ’s Professional Development
Center and the International Services program area to determine if additional technical training
for the LES is necessary. If further training is required, APHIS will provide this training via
distance learning methods to include web-based training and self-instructional courses. In
addition, a syllabus detailing the course descriptions, learning objectives and course length will
be developed and maintained on a SharePoint site. This recommendation will be implemented
by September 30, 2015.
Page 7
Recommendation 14: Require that each cooperative service agreement or other applicable
agreements between APHIS and the cooperator includes a provision stating that a specific
portion of the trust funds will be allocated toward training Preclearance Program
inspectors.

APHIS response: APHIS agrees with the intent of this recommendation. The Cooperative
Service Agreement outlines the financial requirements for the parties entering into the
cooperative agreement. Training costs for the Preclearance Program inspectors are included in
the annual financial operating plans. This recommendation is completed and will be fully
implemented by September 30, 2015.

Recommendation 15: Create and implement a tracking tool that records all inspector
training, including courses taken, completion dates, and future training needs. Retain
documentation of the completed training in the employees’ training records.

APHIS response: APHIS agrees with this recommendation. In 2014, APHIS initiated a process
to track LES inspector training to include courses, completion dates, and additional training
needs. This process includes documenting personnel, training courses, and completion dates on a
spreadsheet that is maintained at the local level and on the Preclearance Program SharePoint site.
Preclearance Program management is working to ensure that all Area Directors are using
SharePoint for this activity. APHIS will explore additional options to ensure the most effective
mechanism for tracking and monitoring. This recommendation will be implemented by
September 30, 2015.

Recommendation 16: Revise the Preclearance Program Management Guidelines to allow
LES inspectors to perform primary inspections after completion of on-the-job training.

APHIS response: APHIS agrees with this recommendation. LES inspectors are required to
complete on-the-job training prior to conducting inspections; however, there may have been
inconsistencies in the level of training from location to location. Inspectors have always been
informally trained prior to conducting treatments and inspections on their own.

APHIS will review and revise the Preclearance Commodity Management Guidelines to support
this recommendation, as well as Recommendation 3. The responsibilities of the LES inspectors
will be described in the Guidelines to ensure inspection consistency and documentation of
Preclearance Program staff. This recommendation will be implemented by September 30, 2015.

We hope that with this memorandum you are able to reach management decisions.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
